                                  TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



June 5, 2014

John J. McCormick, Jr., LP 3D-C

REQUEST FOR FINAL ACTION – EVALUATION 2013-15157 – REVIEW OF TVA’S
ACTIONS TO ADDRESS RIVER OPERATIONS SYSTEMS AND COMPONENTS WITH
POOR RATINGS



During a prior review of how TVA organizations assess the conditions of assets, we
learned asset condition assessments completed by River Operations (RO) had determined
some assets were in deteriorated condition. As a follow up to the prior work, we reviewed
whether TVA is taking actions to address RO systems and components with deteriorated
conditions. Assets with deteriorated conditions are designated as “red” or “yellow.”
According to RO personnel, a red rating indicates equipment condition is poor, while a
yellow rating indicates equipment condition is marginal.

In RO, 1,438 systems and components had been rated red or yellow. We randomly
sampled 50 (8 reds and 42 yellows) for detailed review. We found actions had been taken
to address some systems and components with poor or marginal health. For the purposes
of this report, actions are defined as deficiencies being dispositioned in one of three ways:
through the Corrective Action Program, through the work order process, or by initiating a
project to correct the deficiency.

Of the 8 systems and components with a red rating, all had either a project or work order
developed to address the condition as required by the guidance, 5 were currently in
progress, and 3 had no actions currently underway or planned within the next 3 years.
During our review, color ratings did not change for any of the 8 systems and components
with a red rating.

Of the 42 systems and components with yellow ratings, in 32 cases no action had been
taken, and in 10 cases action had been taken in the form of projects being developed to
address the identified deficiency. Of the 10 that had projects developed, 2 had projects
that were funded or being worked, 7 had projects that were not currently funded, and
1 had a project that was completed. During this review, new guidance was issued within
RO clarifying that actions were only required for red systems and components, not yellow.
Therefore, not pursuing actions on the items that had been rated as yellow does not
represent noncompliance with guidance; however, we note that pushing back and failing to
fund actions to address poor system and component health increases TVA’s risk of
equipment failure.

According to RO personnel, there are limited projects that can be worked based on
funding. RO uses TVA-SPP-19.3, Project Justification Process, along with equipment
condition to prioritize projects. Some of the factors used to prioritize projects include

                                  TVA RESTRICTED INFORMATION
John J. McCormick, Jr.
Page 2
June 5, 2014



safety, regulatory, and economic/revenue. Currently, RO does not document the
justification for reds and yellows that are not funded.

Additionally, TVA has identified asset condition of non-nuclear generation as a top
Enterprise Risk Management risk in fiscal year (FY) 2014. ROR-SPP-09.21, System and
Component Health Program, was superseded by an Engineering Guidance Document
(EGD), which has no requirements, only recommendations. This could potentially result in
health assessments not being completed. Without accurate and timely equipment health
assessments, TVA cannot effectively manage equipment reliability risk.

We recommend the Vice President, RO:

    Consider the potential impact of eliminating the requirement to do asset health
     assessments on TVA’s non-nuclear asset condition risk, and determine a schedule for
     completing health assessments that will adequately mitigate the risk of equipment
     failure.
    Document justification when actions are not taken to address systems and
     components with a red rating.

The Vice President, RO disagreed with our recommendation concerning eliminating the
requirement to do asset health assessments. The response stated that “while our asset
health is important to our long-term performance, it is not compliance driven but rather a
good practice which aligns to a guidance document.” Additionally, the Vice President, RO
stated that their significant risks are documented and evaluated throughout their business
planning process and that the 10-year Asset Management Plan that is being developed by
Operations Support will further document the risks. See the Appendix for TVA’s complete
response.

BACKGROUND

In 2012, the Office of the Inspector General (OIG) issued a report, 2009-12883 – Survey of
TVA’s Process for Determining Condition of Assets, the objective of which was to
determine how TVA (1) assessed the condition of electric assets and (2) used that
information in planning. We found the condition of assets was identified through system,
program, and component health assessments.1 Additionally, all of the organizations used
asset condition to identify corrective actions when necessary.

During the 2009-12883 review, RO personnel stated they took actions to address any
system with poor ratings, even though the RO process, RO-SPP-09.21, System and
Component Health Program, did not specifically include the requirement. We recommended
the revising of RO-SPP-09.21, to require an action when a health assessment resulted in a
poor rating. Management agreed with the recommendation and updated RO-SPP-09.21 to
clarify the expectation that an action item be put in place to track correction of systems with
improvement needs.


1
    System, program, and component health assessments provide a method to improve and maintain
    equipment performance. Program health assessments are not performed in RO.
                                 TVA RESTRICTED INFORMATION
John J. McCormick, Jr.
Page 3
June 5, 2014



EGD-09.021, Equipment Condition Assessment (ECA) Program, was implemented and
describes the ECA process.2 According to the guidance document, this process is an
assessment of major equipment and systems as well as physical and material condition of
Hydro Operations. The assessments will be used to prioritize projects and determine
corrective and preventative maintenance requirements. Deficiencies for red components
shall be dispositioned through the Corrective Action Program,3 work order process, or a
project shall be initiated to correct the deficiency. Additionally, ECA’s are used as one
input to assess risk to the hydro-generation fleet.

OBJECTIVE, SCOPE, AND METHODOLOGY

This review was conducted as a follow up to a previous review: 2009-12883 – Survey of
TVA’s Process for Determining Condition of Assets, during which we learned that certain
generation assets were in deteriorated condition. We performed the review to determine
whether TVA is taking actions to address RO systems and components with deteriorated
conditions. The scope of our review included RO systems and components with red or
yellow ratings for October 2010 through December 2012.

To achieve our objective, we:

    Reviewed processes and procedures and interviewed TVA personnel to determine
     what steps RO is required to take when deteriorated health is identified.
    Selected a random sample of 50 out of 1,438 systems and components with red and
     yellow ratings to determine if actions were being taken. Of our population of
     1,438 systems and components, 309 were red and 1,129 were yellow.

This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

FINDINGS

We found actions have been taken to address some systems and components with
deteriorated conditions. Assets with deteriorated conditions are designated as “red” or
“yellow.” According to RO personnel, a red rating indicates equipment condition is poor,
while a yellow rating indicates equipment condition is marginal. In RO, 1,438 systems and
components had been rated red or yellow, and we randomly sampled 50 (8 reds and
42 yellows) for detailed review. During this review, new guidance was issued within RO
clarifying that actions were only required for red systems and components, not yellow.
Therefore, not pursuing actions on the items that had been rated as yellow does not
represent noncompliance with guidance; however, we note that pushing back and failing to
fund actions to address yellow system and component health increases TVA’s risk of
equipment failure.



2
    ROR-SPP-09.21 was superseded by the EGD-09.021, ECA Program, on May 31, 2013.
3
    The systematic process used to find, analyze, and fix performance gaps and near misses such that overall
    performance is improved.
                                   TVA RESTRICTED INFORMATION
John J. McCormick, Jr.
Page 4
June 5, 2014



Of the 8 systems and components with a red rating, all had either a project or work order
developed to address the condition as required by the guidance, 5 were currently in
progress, and 3 had no actions currently underway or planned within the next 3 years.
During our review, color ratings did not change for any of the 8 systems and components
with a red rating. Of the 42 systems and components with yellow ratings, in 32 cases no
action had been taken, and in 10 cases, action had been taken in the form of projects
being developed to address the identified deficiency. Of the 10 that had projects
developed, 2 had projects that were funded or being worked, 7 had projects that were not
currently funded, and 1 had a project that was completed.

RO personnel acknowledged there are limited projects that can be worked based on
funding. Asset owner priority was one reason given for projects not being funded. RO uses
TVA-SPP-19.3, Project Justification Process, along with equipment condition to prioritize
projects. Some of the factors used to group projects for prioritization include safety,
regulatory, and economic/revenue. A Generation portfolio procedure (CGO-SPP-19.004,
Project Portfolio Management Process) has been developed that requires business units to
maintain a 3-year project portfolio that will be integrated into the Generation Group
Portfolio. All projects in the Generation Group Portfolio are subject to TVA’s Project
Approval Process defined in TVA-SPP-19.3, Project Justification Process.4 In accordance
with TVA-SPP-19.3, RO personnel stated projects that are safety and regulatory related are
worked first, and then economic projects are funded. According to RO personnel, there is
no formal documentation for the justification for reds and yellows that do not have projects.

Additionally, TVA has identified asset condition of non-nuclear generation as a top
Enterprise Risk Management risk in FY2014. Replacing ROR-SPP-09.2, System and
Component Health Program with an EGD could make mitigating the risk more difficult; it
will potentially increase the number of health assessments that are not completed.

RECOMMENDATIONS

We recommend the Vice President, RO:

    Consider the potential impact of eliminating the requirement to do asset health
     assessments on TVA’s non-nuclear asset condition risk and determine a schedule for
     completing health assessments that will adequately mitigate the risk of equipment
     failure.
 Document justification when actions are not taken to address systems and components
  with a red rating.

TVA Management’s Comments – The Vice President, RO disagreed with our
recommendation concerning eliminating the requirement to do asset health assessments.
The response stated that “while our asset health is important to our long-term
performance, it is not compliance driven but rather a good practice which aligns to a
guidance document.” Additionally, the Vice President, RO stated that their significant risks

4
    TVA-SPP-19.3, Project Justification Process, defines TVA’s process for planning, prioritization, review,
    approval, evaluation, monitoring, project change authorization, and cancellation and closure of Capital and
    Operating and Maintenance Projects.
                                    TVA RESTRICTED INFORMATION
John J. McCormick, Jr.
Page 5
June 5, 2014



are documented and evaluated throughout their business planning process and that the
10-year Asset Management Plan that is being developed by Operations Support will
further document the risks. See the Appendix for TVA’s complete response.

Auditor’s Response – The OIG maintains that replacing ROR-SPP-09.2, System and
Component Health Program with an EGD could make mitigating the risk more difficult and
will potentially increase the number of health assessments that are not completed. The
OIG does agree that the completion of the 10-year Asset Management Plan should
address the systems and components with red ratings that do not currently have planned
actions.

                              -      -      -       -      -

This report is for your review and final action. Your written comments, which addressed
your management decision and actions planned, have been included in the report. Please
notify us within one year from the date of this memorandum when final action is complete.

If you have any questions or wish to discuss our observations, please contact Kristin S.
Leach, Senior Auditor, Evaluations, at (423) 785-4818 or Gregory R. Stinson, Director,
Evaluations, at (865) 633-7367. We appreciate the courtesy and cooperation received
from your staff during the evaluation.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

KSL:FAJ
cc: William D. Johnson, WT 7B-K
    Dwain K. Lanier, MR 3K-C
    Justin C. Maierhofer, WT 7B-K
    Richard W. Moore, ET 4C-K
    R. Windle Morgan, WT 9B-K
    Charles G. Pardee, WT 7B-K
    TVA Board of Directors
    OIG File No. 2013-15157




                              TVA RESTRICTED INFORMATION
                              APPENDIX
                             PAGE 1 of 1




TVA RESTRICTED INFORMATION
